SupremTcSurtTus'

ItOD.

FILED

AU6 - 5 2021

No.

£E2ceoftheclerK

3n®F)e

Supreme Court of tfje ®ntteb States;
SEAN A. CLARK,
Petitioner,
v.
MARK SCHROEDER,
NYS COMMISSIONER OF DMV,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Second Circuit

PETITION FOR WRIT OF CERTIORARI

Sean A. Clark
Pro se Petitioner
93 4th Avenue 1172
New York, New York 10003
Phone # 917-242-2573
Email: seantellc_22@yahoo.com

RECEIVED
AUG - 9 2021

MBfltaafflK

1

QUESTION PRESENTED
This actions pertains to the leakage of my current
drivers license #xxx-xxx-678 which expires in 2025. A
leakage is secret information that exposes the omis­
sion of my current drivers license #xxx-xxx-678 as well
as my previous drivers license #xxx-xxx-678. The leak­
age pertains to index number 400256/2014 of human
resource administration, my social security disability
benefits which I won a fully favorable decision on July
10, 2012 but I did not receive the full amount of bene­
fits pursuant to Social Security Act XVI Sec. 1611. [42
U.S.C. 1382] (a)(1), and student loan embezzlement
which relates to dkt. #18-cv-9354, dkt. #15-cv-5863 and
No. #16-6495 of this court. All debts were paid by Social
Security Administration in 2013 a total of $50,394.90.
The succinct order by the U.S.D.J on November 5,2020
was based on the eleventh amendment immunity, sua
sponte, and prejudice. Under Rule 4(m) of FRCP, I was
not given ninety days to serve the respondent. The
second circuit panel of judges dated 5/14/2021 stated,
“because the district court dismissed Clark’s complaint
before the DMV commissioner was served properly,
this court lacks jurisdiction over him”. Does this action
violate the Fourteenth and Fifth Amendment Due Pro­
cess Clause?

11

TABLE OF CONTENTS
Page
Question Presented.......................

1

Table of Contents...........................

n

Table of Authorities.......................

IV

Petition of Writ of Certiorari........

1

Opinions Below..............................

1

Jurisdiction.....................................

1

Constitutional Provision Involved

1

Statement of Cases........................

2

Reason for Granting the Writ......

35

Conclusion.......................................

38

APPENDIX
District Court Docket Sheet

App. 1-3

United States Court of Appeal for the Second
Circuit order dated 5/14/2021....
..App. 4-8
Birth Certificate-dated: 12/6/2004

App. 9-10

Article 78 Judge decision-dated: 7/11/2014....App. 11-12
Proof of Service from Article 78 Judge decisiondated: 8/20/2014
App. 13
U.S.S.C. decision order to correct defects in the
Administrative record-dated: 5/19/2010.... App. 14-15
U.S.S.C. decision order to correct defects in the
App. 16
Administrative record-dated: 5/9/2013
Drivers License #xxx-xxx-678-dated: 5/21/2018App. 17
Exhibit F

Ill

TABLE OF CONTENTS—Continued
Page
X-ray report dated 7/10/2002..............
.... App. 18
SSI/SSD Application dated 11/24/2006
App. 19-27
Social Security benefit statement for 2013dated: 7/31/2015
App. 28
Receipt of Summons & Complaint for U.S. De­
partment of Education, Allied Interstate, and
Student Loan Finance Corporation-dated:
11/30/2015
App. 29-33
Decision Notice from United States DOE dated
1/15/2019
App. 34-39
Adjudication Review Board and Post Office Re­
ceipt-dated: 7/26/2012
App. 40-41
Social Security Card last four digits only xxx-xx7004
App. 42
Gold Bars from Estate Account #xxxxxxxxdated: 9/29/1998
App. 43
Retained Attorney regarding estate account
#xxxxxxxx-dated 8-10-2006................. .... App. 44
Money orders dated 8/2/2006 & 8/3/2006 .... App. 45
Census Questionnaire confirmation page. App. 46-47
Order from U.S.D.J................................... App. 48-49
Answer from Judge order-dated: 10/22/2020 ....App. 50-52
Judgement Order-dated: 11/5/2020
App. 53-56
Letter from representative of SSA dated 9-62019
App. 57-58
Student Loan Interest Rate Calculator docu­
ments
App. 59-60

IV

TABLE OF AUTHORITIES
Page
Cases
Al Turi Landfill, Inc. v New York State Dept, of
Envtl. Conservation, 98 NY2d 758 (2002)........

5

Ashcroft v. Iqbal, 556 U.S. 662 (2009)...................

19

Ex parte United States, 287 U.S. 241 (1932)........

4

Ex parte Young, 209 U.S. 123 (1908).....................

3

Labsy v. Howes Leather Co., 352 U.S. 249 (1957)

3

Pollard v. Halter, 377 F.3d 183 (2d Cir. 2014)......

11

Richardson v. Perales, 402 U.S. 389 (1971)).........

11

Rodriguez v. Califano, 431 F. Supp. 421 (S.D.N.Y
1977).........................................................................

11

Schlagenhauf v. Holder, 379 U.S. 104 (1964).......

3

Spacil v. Crowe, 489 F.2d 614 (5th Cir. 1974)......

3,4

United States v. McGarr, 461 F.2d 1 (7th Cir.
1972).........................................................................

3

Constitutional Provisions
14th amendment

1,4, 20

5th amendment..

....2,20
Rules

Rule of Law

37

Rule 42.1....

38

V

TABLE OF AUTHORITIES—Continued

Page
Statutes
28 U.S.C. § 1257...................................................

1

28 U.S.C. § 1331................................................... 3,5,8
42 U.S.C. § 405(g)................................................. 14, 15
Social Security Act XVI Sec. 1611 [42 U.S.C.
1382](a)(l)..............................................................

15

Social Security Act §1632 [42 U.S.C.
1383a](e)(l)...........................................................

16

APA 5 U.S.C. § 706(2)(a)..........................................

18

1
PETITION FOR WRIT OF CERTIORARI
I, Sean A. Clark, petitioner, respectfully petition
this court to review the second circuit court of appeals
decision on May 14, 2021 and U.S.D.J. decision on
11/5/2020.

OPINIONS BELOW
The U.S.D.J. dismissed the complaint as frivolous
and stated that the eleventh amendment immunizes
the respondent from this suit on 11/5/2020. The
U.S.S.C. dissension affirmed the decision on 5/14/2021.

JURISDICTION
Since the United States Second Circuit stated that
the court lacks jurisdiction over me (petitioner) I’m re­
questing under 28 U.S.C. § 1257 that this court main­
tain jurisdiction in this procedural matter.

CONSTITUTIONAL PROVISION INVOLVED
14th amendment which states, “All persons born
or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States
and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the priv­
ileges or immunities of citizens of the United States,
nor shall any State deprive any person of life, liberty,

2

or property, without due process of law, nor deny to any
person within its jurisdiction the equal protection of
the laws.” The 5th amendment which states, “No per­
son shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indict­
ment of a Grand jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual
service in time of war or public danger, nor shall any
person be subject for the same offense to be twice put
in jeopardy of life or limb, nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due pro­
cess of law, nor shall private property be taken for pub­
lic use, without just compensation.”

STATEMENT OF THE CASES
1.

BACKGROUND

Again, briefly explaining index number 400256/2014
(case #8877557c), the Commissioner of Social Services
is the one who designates authorized personnel to
handle the affairs of OTDA hearing decisions. NYCHRA improperly discontinued my public benefits
on January 17, 2014, despite my alleged exemption
from work requirements due to my physical impair­
ments. I appealed the decision under Article 78,
which encompasses three writs: mandamus, prohibi­
tion, and certiorari. The U.S.D.J. Judgement order
dated 11/5/2020 stated, “Plaintiff’s suit does not fall
under this exception of immunity as plaintiff does not

3
request injunctive relief but instead seeks compensa­
tory damages”. This is where mandamus is imple­
mented for injunctive relief to compel the respondent
to compensate punitive damages to me the petitioner
for all of those previous years of neglect. Writ of certi­
orari has jurisdiction on all district court civil cases
under 28 U.S.C. § 1331 pertaining to a federal ques­
tion. Writ of prohibition does not prohibit district
courts from analyzing an administrative or govern­
ment official decision based on the merit of fact under
the fourteenth amendment due process law. The suc­
cinct order by the U.S.D.J. on November 5, 2020 was
based on the eleventh amendment immunity, sua
sponte, and prejudice. Under Rule 4(m) of FRCP, I was
not given ninety days to serve the respondent. I stated
that there is an exception to the Eleventh Amendment
immunity, in Ex parte Young, 209 U.S. 123 (1908). The
exception is my entitled physical disability which is
supported by the ada act of 1990 and the exception is
also my gold bars in my estate account. “If government
officials attempt to enforce an unconstitutional law,
sovereign immunity does not prevent people whom the
law harms from suing those officials in their individual
capacity for injunctive relief. This is because they are
not acting on behalf of the state in this situation”. “The
majority was forced to reconcile the eleventh amend­
ment’s ban on individuals suing states with the four­
teenth amendment’s requirement that states respect
due process rights of individuals”. Labsy v. Howes
Leather Co., 352 U.S. 249 (1957); United States v.
McGarr, 461 F.2d 1 (7th Cir. 1972); Schlagenhauf v.
Holder, 379 U.S. 104 (1964); Spacil v. Crowe, 489 F.2d

4
614 (5th Cir. 1974); Ex parte United States, 287 U.S.
241, 248 (1932)
The 14th amendment section 1 and section 5
states,
“All persons bom or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the
state wherein they reside. No state shall make
or enforce any law which shall abridge the
privileges or immunities of citizens of the
United States; nor shall any state deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within
its jurisdiction the equal protection of the
laws”. The exception is my physical disability
since 2002 and my gold bars in my estate ac­
count.
la. Leakage to HRA for Social Services History:
Again, briefly explaining index number 400256/2014
(case #8877557c), the Commissioner of Social Services
is the one who designates authorized personnel to
handle the affairs of OTDA hearing decisions. NYCHRA improperly discontinued my public benefits on
January 17, 2014, despite my alleged exemption from
work requirements due to my physical impairments. I
appealed the decision under Article 78, which encom­
passes three writs: mandamus, prohibition, and certio­
rari. The New York State judge decision on July 11,
2014 stated that,

5
“The application of prose petitioner for an or­
der pursuant to CPLR Article 78, annulling
and vacating the determination of respondent
discontinuing Public Assistance benefits of
petitioner for failure to attend a mandatory
interview, is hereby transferred to the Appel­
late Division, First department”.
“Anytime a proceeding involves substantial
evidence under Article 78 the proceeding
should be transferred to the Appellate Divi­
sion, First Department pursuant to CPLR
7804(g)”.
“CPLR 7804(g) authorizes the court in which
the article 78 proceeding is commenced to de­
cide any issues which would terminate the
case if no issue of substantial evidence is
raised. Otherwise, the section requires the
court to transfer the case to the Appellate Di­
vision for disposition”.
Al Turi Landfill, Inc. v. New York State Dept, of Envtl.
Conservation, 98 NY2d 758, 760 (2002). The U.S.D.J.
Judgement order dated 11/5/2020 stated, “Plaintiff’s
suit does not fall under this exception of immunity as
plaintiff does not request injunctive relief but instead
seeks compensatory damages”. This is where mandamas is implemented for injunctive relief to compel the
respondent to compensate punitive damages to me the
petitioner for all of those previous years of neglect.
Writ of certiorari has jurisdiction on all district court
civil cases under 28 U.S.C. § 1331 pertaining to a
federal question. Writ of prohibition does not prohibit
district courts from analyzing an administrative or

6

government official decision based on the merit of fact
under the fourteenth amendment due process law.
Besides, the leakage to my drivers license occurred
in New York State therefore this legal action is within
the jurisdiction requirements by law. What the U.S.D.J.
is implying in the judgement order on 11/5/2020 is that
as long as an unconstitutional law of immunity exist
then it is standard procedure for the respondent to
have authorized personnel to leak into my drivers li­
cense #xxx-xxx-678 for embezzlement systematic im­
personation. Again, I was not given ninety-days to
serve the respondent under FRCP 4(m).
lb. SUBSTANTIVE DUE PROCESS:
Substantive due process “is the notion that due
process not only protects certain legal procedures, but
also protects certain rights unrelated to procedure”.
When the Commissioner’s designee dismissed my ben­
efits on 1/17/2014 for supposedly good cause and the
Article 78 judge vacated the decision this was the
proper method for using the substantive due process
based on a pre-determined decision that was based on
assumptive medical facts. Substantive Due Process is
a pre-deprivation remedy that was made from the
Commissioner’s designee on 1/17/2014. Apparently, it
was designed to temporarily discontinue my benefits
until the next level of appeal.
“The Fourteenth Amendment’s Due Process
Clause is not a secret repository of substan­
tive guarantees against unfairness”. “The Due

7

Process Clause protected individuals from
state legislation that infringed upon their
“privileges and immunities” under the federal
Constitution”.
“The Constitution states only one command
twice. The Fifth Amendment says to the fed­
eral government that no one shall be “de­
prived of life, liberty or property without due
process of law.” The Fourteenth Amendment,
ratified in 1868, uses the same eleven words,
called the Due Process Clause, to describe a
legal obligation of all states. These words have
as their central promise an assurance that all
levels of American government must operate
within the law (“legality”) and provide fair
procedures”.
When the Commissioner’s designee dis­
continued my benefits on 1/17/2014 fair proce­
dures were not implemented but rather a
resolution designed to get me the recipient to
work. However, the case was transferred later
rather than early from the judge decision or­
der on July 11,2014 after I submitted my proof
of service on 8/20/2014. If I hadn’t of submit­
ted all of the required paper work to the Man­
hattan Supreme Court in August of 2018 the
case would never have been transferred. I
have been deprived of a public benefit which
violates the 14th and 5th amendment due pro­
cess rights.
“The clause also promises that before depriv­
ing a citizen of life, liberty or property, govern­
ment must follow fair procedures. Thus, it is

8

not always enough for the government just to
act in accordance with whatever law there
may happen to be. Citizens may also be enti­
tled to have the government observe or offer
fair procedures, whether or not those proce­
dures have been provided for in the law on
the basis of which it is acting. Action deny­
ing the process that is “due” would be uncon­
stitutional”. “The Constitution does not
require “due process” for establishing laws;
the provision applies when the state acts
against individuals “in each case upon indi­
vidual grounds”—when some characteristic
unique to the citizen is involved. Of course
there may be a lot of citizens affected; the is­
sue is whether assessing the effect depends
“in each case upon individual grounds.”
The Rooker-Feldman doctrine does not apply in this
case because of fraud and facts stated by the sixth cir­
cuit which state,
“An exception to the Rooker-Feldman of just
such an equitable persuasion has taken root.
A few courts especially the United States
Court of Appeals for the Sixth Circuit-have
determined that the Rooker-Feldman does not
prevent the lower federal courts from review­
ing state court judgments that were allegedly
procured through fraud”.
Fraud occurred shortly after the Article 78 judge
decision on July 11,2014 in an unknown amount. This
fraud was occurred through the leakage of my drivers
license number XXX-XXX-678 which is the “gateway”
of illegal monetary funds. Under 28 U.S.C. § 1331

9
any district court has jurisdiction over all civil actions
pertaining to a Federal Question. The previous district
judge stated in the decision order dated 4/23/2019-dkt.
#18-cv-10038-#39, “to survive a motion to dismiss un­
der Rule 12(b)(6), the plaintiff must plead enough facts
to state a claim to relief that is plausible on its face”.
“A court must accept all well-pleaded facts as true and
must draw all reasonable inferences in favor of the
plaintiff”. “Rule 12(b)(6) of the Federal Rules of Civil
Procedure tests the form and sufficiency of a statement
of a claim under the liberalized pleading rule. However,
since the Federal Rules attempted to adopt the suc­
cesses and avoid the failures of code pleading, the pur­
pose of Rule 12(b)(6) seems to conflict with the purpose
of modern pleading.” “Although the liberal pleading
rule generally allows a plaintiff to set forth a claim in
a short and plain statement, Rule 12(b)(6) allows a
court to dismiss a complaint before the development of
the proceeding. The problem is when and how a Rule
12(b)(6) motion is to be granted.”
This action is a false stipulation designed to ac­
quire my gold bars from my estate account. I retained
an attorney in 2006 and the attorney informed me that
there is in fact gold bars in my estate account and I am
the only legal heir of the estate. This document dated
September 29, 1998 was attached to the summons &
complaint and also was attached to the appendix. The
second circuit did not reverse or vacate its judgment
on May 14, 2021 but agreed with the district court er­
ror even though facts were presented from the appen­
dix.

10
2.

Leakage to Social Security Administration
History:

Another leakage to my drivers license #xxx-xxx678 pertains to my social security disability benefits.
The onset date of my disability is 7-10-2002. (See Court
Transcript dated 11-18-2008 page #294 of SSA) I first
applied for SSI/SSD on 1/22/2004 and after denial I did
not attend the administrative fair hearing that was
scheduled for me to attend. I re-applied on November
24, 2006 not October 27, 2006 and the SSA state
agency had reports from Bellevue Hospital dated
12/25/04 thru 5/06/05, Lebanon Hospital report of
11/02/06, HS systems report of 8/13/04 and examina­
tion report of 1/04/07. The SSA state agency stated that
my condition “is not severe enough to be considered
disabling”. (See court administrative transcription rec­
ord of SSA dated 11-18-2008 page #61) I proceeded to
the next step in the appeals process which is a fair
hearing on 10-30-2007. The ALJ (Administrative Law
Judge) stated that “the above impairment causes more
than slight restrictions of the claimant’s physical abil­
ity to perform basic work activities”. The ALJ also
stated “the claimant generally continues to have the
burden of proving disability at this step”, which is step
five of the Social Security Act evaluation process. (See
court administrative transcription record of SSA dated
11-18-2008 page #8) Pertaining to the MRI dated 5-112007 the ALJ stated that,
“there’s wedging at the T12 and LI levels,
straightening of the normal lumbar lordosis
in the neutral position, degenerative changes

11
were present at the L3/L4 level, excursion on
flexion and extension views were somewhat
limited, the sacroiliac joints were normal in
appearance with mild sclerosis at the iliac
margins”.
(See court administrative transcription record of SSA
dated 11-18-2008 page #12)
The November 2006 New York City Human Re­
source administration consulting examination report
from the Federation Employment and Guidance Ser­
vice states that, “the claimant has a mild reduced ROM
(range of motion) of his lower back of an unspecified
degree”. (See court administrative transcript record of
SSA dated 11-18-2008 page #13) The ALJ stated on 1109-2007 “under sections 216(1) and 223(d) and under
section 1614(3)(A) of the Social Security Act that the
claimant is not disabled”. Next, the Appeals Council re­
view dated 9-09-2008 stated “no reason under their
rules to review the Administrative Law Judge’s deci­
sion”. I then proceeded to a civil action lawsuit on 1002-2008 dkt. #08-cv-8443 (AKH). The previous U.S.D.J.
dkt. #08-cv-8443 (AKH) in the final decision notice
dated 5-12-2009 page #2 stated that “the evidence sup­
porting a decision is substantial if a reasonable mind
might accept the evidence as adequate. (See Pollard,
377 F.3d at 188) (citing Richardson u. Perales, 402 U.S.
389, 407 (1971)). The substantial evidence test applies
not only to findings of basic evidentiary facts but also
to inferences and conclusions drawn from such facts”.
(See Rodriguez v. Califano, 431 F. Supp. 421, 423
(S.D.N.Y. 1977))

12
Social Security Act §216(1) and Social Security Act
§1614(a)(3) define disability,
“as the inability to engage in any substantial
gainful activity (SGA) by reason of any medi­
cally determinable physical or mental impair­
ment (or combination of impairments) which
can be expected to result in death or which
has lasted or can be expected to last for a con­
tinuous period of not less than twelve
months”. “A claimant is disabled under the act
only if his physical or mental impairment or
impairments are of such severity that he is
not only unable to do his previous work but
cannot considering his age, education, and
work experience cannot engage in any other
kind of substantial gainful work which exists
in the national economy”. The previous
U.S.D.J. 08-cv-8443 (AKH) further stated that,
“the Social Security Administration has prom­
ulgated a five-step procedure for evaluating
disability claims. First, the Social Security
Administration (SSA) considers whether the
claimant is currently engaged in any substan­
tial gainful activity. If not then secondly the
Social Security Administration (SSA) consid­
ers whether the claimant has a severe impair­
ment which significantly limits his physical or
mental ability to do basic work activities. If
the claimant suffers such an impairment then
the third inquiry is whether based solely on
medical evidence that the claimant has im­
pairments. If the claimant has an impairment
the Social Security Administration (SSA) will
consider him disabled without considering

13
vocational factors such as age, education, and
work experience. Assuming the claimant does
not have a listed impairment then the fourth
inquiry is whether despite the claimant se­
vere impairment that he has the residual
functional capacity to perform his past work.
Finally if the claimant is unable to perform
his past work then the SSA determines
whether there is other work which the claim­
ant can perform”.
The previous U.S.D.J. dkt. #08-cv-8443
(AKH) further stated that the “burden rests
on the claimant through the first four steps of
the Social Security Act”. (See decision notice
dated 5-12-2009 08-cv-8443 (AKH) pages 2-3)
Again, the previous U.S.D.J. dkt. #08-cv-8443
(AKH) final statement concluded that “the ev­
idence substantially supports the determina­
tion of the ALJ as a reasonable mind might
accept as adequate to support that determina­
tion”. Next, I proceeded to the next level of ap­
peal on 7-10-2009 dkt. #09-2974-cv.
Shortly after appealing, I submitted a brief dated
8-18-2009 (09-2974-cv U.S.S.C.) stating that I have not
engaged in any type of substantial gainful activity
since 4-15-2006 which is the last quarterly day of my
employment. Secondly, that my severe impairment
prevents me from doing any kind of menial or substan­
tial work. My degenerative disc disease is ongoing pain
that never cease. The pain is more detrimental when
lifting heavy objects or standing for long periods.
Thirdly, my physical impairment has lasted for more
than twelve months and will continue to last until the

14
point of death. Fourthly, pertaining to residual func­
tional capacity, due to the severity of my impairment it
is impossible for me to perform daily tactical routines
on a daily basis by consistently maneuvering in a
steady environment. Lastly, the ALJ (Administrative
Law Judge) stated that “the impairment causes more
than slight restrictions of the claimant’s physical abil­
ity to perform basic work activities”. (See Court Ad­
ministrative Transcript record for SSA dated 11-182008 page #8) This statement is evident of how severe
my medical condition entail.
After I submitted my brief on 8/18/2009, the panel
of judges in the U.S.S.C. entered a judgement dated 519-2010 (dkt. #09-2974-cv) stating that the “defendant
moves to remand the case to the district court for the
Southern District of New York so that it may vacate its
decision and judgement and remand the case to the
Commissioner for further administrative proceeding
to correct deficiencies in the administrative record pur­
suant to the fourth sentence of 42 U.S.C. § 405(g).
Upon due consideration it is hereby ordered that the
motion is granted and the case is remanded to the dis­
trict court with instructions to vacate its judgement
and remand the case to the commissioner”.
I applied again and the administrative law judge
issued a fully favorable on 7/10/2012 but the commis­
sioner never evaluated the entire administrative rec­
ord to correct defects per court order dkt. #09-2974cv.
The U.S.D.J. stated in the judgement order dated
11/5/2020 “plaintiff does not address the defects in
the response of the complaint”. Defects were never

15
corrected concerning the application date of Novem­
ber 24, 2006 not October 27,2006. Other defects in
the administration were never corrected per 42 U.S.C.
§ 405(g). The only way the leakage of my drivers li­
cense could have occurred is the incorrect date of my
SSD/SSI application date for embezzlement. The ALJ
based his decision of favorable on facts I submitted to
the hearing from medical reports and x-ray reports.
The agency or commissioner never examined the entire
administrative record to correct defects and the appro­
priate amount of disability benefits. I submitted a letter
to the adjudication review board on 7/26/2012 by one
day express mail (tracking number #E1486128197US)
but I never received any kind of response from the ad­
judication review board.
Under Social Security Act XVI Sec. 1611. [42
U.S.C. 13821(a)(1), “Each aged, blind, or disabled indi­
vidual who does not have an eligible spouse and—(A)
whose income, other than income excluded pursuant to
section 1612(b), is at a rate of not more than $3,011”.
My benefits are not correct under the Social Secu­
rity Act. This is why embezzlement still occur through
a leakage of my drivers license because I am entitled
to receive the full amount of benefits and the applica­
tion date I applied for SSD/SSI was never corrected. I
submitted an application on November 24, 2006 not
October 27, 2006. Refer to court transcript administra­
tive record of SSA dated November 18, 2008 pages
83-91.

16
The representative for SSA stated in the letter
dated September 6,2019, “it appears that a final judg­
ment remanding the case to the Commissioner should
have been entered but was not”. An order of the judge­
ment was entered on May 21, 2010 dkt. #08-cv-8443
#20 on the docket sheet. Under “Social Security Act
§1632 [42 U.S.C. 1383a](e)(l) The Commissioner of So­
cial Security shall review determinations, made by
State agencies pursuant to subsection (a) in connection
with applications for benefits under this title on the
basis of blindness or disability, that individuals who
have attained 18 years of age or disabled as of a speci­
fied onset date”.
The x-ray report from the radiology department at
Bellevue Hospital dated 9-05-2008 stated that, “there
is a degenerative disc disease at the L3-L4 levels with
small anterior osteophytes and disc space narrowing of
the lumbar spine. Other intravertebral disc space
heights are preserved”.
There is a central disc protrusion at the L5/S1
level of my lower spine abutting the nerve roots bilat­
erally which causes neuropathic pain. At the L3/L4
and L5/S1 level of my lumbar spine there is a degener­
ative disc disease which is known as a disc herniation.
At the L3/L4, L4/L5, and L5/S1 level of my lower back
there is a diffuse bulging disc. When my bulging disc
impinges on my sciatic nerve in my lower back it can
lead to a back problem called sciatica.

17
Furthermore, at the L3/L4 level of my lower back
there is a central canal stenosis (lumbar spinal steno­
sis) which is,
“a disease that is caused by a gradual narrow­
ing of the spinal canal. This narrowing hap­
pens as a result of the degeneration of both
the facet joints and the intervertebral discs. In
this condition bone spurs called osteophytes
which develop because of the excess load on
the intervertebral disc grow into the spinal ca­
nal. The facet joints also enlarge as they be­
come arthritic which contributes to a decrease
in the space available for the nerve roots. The
ligaments of the spinal column, especially the
ligamentum flavum become stiff less flexible
and thicker with age which also contributes to
spinal stenosis. These processes narrow the
spinal canal and may begin to impinge and
put pressure on the nerves roots and spinal
cord creating the symptoms of spinal stenosis.
Stenosis may occur in the central spinal canal
(central stenosis) where the spinal cord or
cauda equine are located, in the tract where
the nerve root exits the central canal (lateral
recess stenosis) or in the lateral foramen (foraminal stenosis) where the individual nerve
roots exit out of the body”.
3.

Leakage to Student Loan History which
was promulgated

Next, is a student loan debt in the amount of
$14,399.29 by the U.S. Department of Education and
$7,120.22 by Student Loan Finance Corporation. The

18
correct method applied by the Student loan interest
rate calculator is-Loan amount $3,500-Loan amount
in years-20-Interest Rate-4.45%=$1,791.61 Therefore,
the correct amount for the U.S. Department of Educa­
tion is $10,583.61 instead of $14,399.29. Student
Loan Finance Corporation accumulation amount is
inaccurate as well. The correct method is-Loan
amount-$l,708-Loan amount in years-20-Interest rate
-4.45%=$874.31. Therefore, the correct amount should
have been $5,164.71 instead of $7,120.22. This is
a false statement by the U.S. Department of Educa­
tion and SLFC which violates statute APA 5 U.S.C.
§ 706(2)(a). The representative for the U.S. Depart­
ment of Education confessed to an error and was
granted a remand on 5/11/2016 dkt. #15-cv-5863. How­
ever, the error was never corrected from the U.S. De­
partment of Education decision on 1/15/2019. All debts
were paid by Social Security Administration in 2013 a
total of $50,354.90.
This case was first presented to this court in 2016
as No. #16-6495. See-SeanA. Clark v. Student Loan Fi­
nance Corporation, Allied Interstate, and U.S. Depart­
ment of Education. The representative for the U.S.
Department of Education confessed to an error and
was granted a remand on 5/11/2016. However, the er­
ror was never corrected.

19
3a. FACTUAL EVIDENCE THAT A DEBT DOES
NOT EXIST AND A DEBT IS NOT OWED.
The complaint that was submitted to U.S.D.C. dkt.
#20-8000cv does show “sufficient factual matter, ac­
cepted as true, to state a claim to relief that is plausible
on its face”. Ashcroft v. Iqbal, 556 US. 662 (2009)
Two scenarios to consider is the fact that the
information on the previous credit report dated
9/22/2015 should have remain on the experian credit
report until July of 2016 but it was deleted on
10/27/2015 due to a disputed investigation. The other
scenario is the inaccurate amount of the student loan
debt which is $14,399.29 and should have been
$10,583.61. The correct method is applied by the Stu­
dent Loan Interest Rate calculator above. I never at­
tended Anthem College in the State of Georgia in 2003
or signed an online Direct Consolidation loan Applica­
tion on 1-7-2013.
3b. There is a Viable Claim for Violation of my
Civil Rights in this Case
As I stated in the summons & complaint that was
submitted on 9/28/2020 in the U.S.D.C. dkt. #20-8000cv
that the student loan amount by the U.S. Department
of Education is inaccurate and a violation of my civil
rights which denied me benefits of service to continue
my education at a higher level of academics. I could not
further advance my education because of this fraudu­
lent identity theft. I’ve been entitled with my physical
disability since 2002 due to a sports injury. The major

20
cause of my herniated disc is sciatica which prevents
me from doing any kind of work activities. I do not have
a mental disability only a physical disability, therefore
I am still able to learn. I was denied benefits from a
federal program because the benefits are incorrect
which denied me good credit. Good credit is important
in today’s economy because you can apply for a loan,
get a credit card, or get a grant for financial aid which
helps pay for tuition fees. This action violates my due
process rights because the U.S. Department of Educa­
tion collection of $26 dollars per month for four months
on 3/11/2015, 4/08/2015, 5/13/2015, and 6/10/2015 was
illegal and violates the 14th and 5th amendment due
process law. Why wasn’t the collection cycle continued
until July of 2016 when the item was supposed to re­
main on the Credit report from Experian? This ques­
tion was never answered by the representative of the
U.S. Department of Education.
3c. This Matter was Remanded to the U.S. De­
partment of Education on 5/11/2016 to
Evaluate the Procedure using the APA-Administrative Procedure Act approach in
more Context
This act “is the United States federal statute that
governs the way in which administrative agencies of
the federal government of the United States may pro­
pose and establish regulations. To protect citizens,
the APA also grants the judiciary oversight over all
agency actions”. “The APA requires that to set aside
agency actions that are not subject to formal trial-like

21
procedures, the court must conclude that the regula­
tion is “arbitrary and capricious, an abuse of discretion,
or otherwise not in accordance with the law”.
“Substantial evidence review gives the courts lee­
way to consider whether an agency’s factual and policy
determinations were warranted in light of all the in­
formation before the agency at the time of decision.
Accordingly, arbitrary and capricious review is under­
stood to be more deferential to agencies than substan­
tial evidence review is”.
Substantial evidence is the falsified credit item
dated 9/22/2015 that was deleted on 10/27/2015 due
to a disputed investigation on 10/2/2015. The item
was to remain on the credit report until July of 2016.
These items were attached to the previous amended
complaint on 10/29/2015 and was electronically filed.
Another error was the incorrect amount of Student
Loan Debt. The U.S. Department of Education stated,
“a FFEL STAFFORD loan was processed on
11/30/1999 for the amount of $3,500 from West Los
Angeles College”. The interest rate for this loan over
a twenty year period is-Loan Amount $3,500-Loan
Amount in years-20-Interest Rate-4.45%. Therefore,
the correct amount should have been $10,583.61 in­
stead of $14,399.29. However, since all debts were
paid in 2013 by Social Security Administration the
amount in 2013 for the U.S. Department of Education
would have been $8,304.2. (Loan amount-$3,500-Loan
terms in years 15-interest rate-4.45%-monthly payments-$26.69) The amount in 2013 for Student Loan
Finance Corporation would have been $3,960.64. (Loan

22

amount-$l,708-Loan term in years-13-interest rate4.45%-monthly payments-$ 14.44)
These acts are arbitrary and capricious and not
according to any federal laws, (https://en.wikipedia.org/
wiki/Administrative_Procedure_Act United_States)
3d. The U.S. Department of Education used an
Incorrect Method when Evaluating Dis­
charge Application
The U.S. Department of Education stated, “The
DOE denied Clark’s discharge application by applying
the wrong legal standard”.
“Specifically, in the July 29 letter to Clark, the
DOE explained its decision to deny the discharge ap­
plication, stating that Clark had failed to submit a re­
quired set of documentation including, inter alia,
various signature samples and the police report per­
taining to the alleged identity theft”.
Law enforcement officials stated, “since I never at­
tended Anthem College I cannot submit a police iden­
tity theft report”. The representative for the U.S.
Department of Education stated, “In this situation,
Clark’s discharge application should be reviewed un­
der the standard of common law fraud”. “Where, as
here, an agency’s decision is based on legal error, the
appropriate judicial remedy under the APA, with one
exception not relevant here, is a judicial order setting
aside the agency decision and remanding the matter
for further administrative proceedings”. After almost

23

three years from the remand decision dated 5/11/2016
the U.S Department of Education submitted a decision
notice dated 1/15/2019 with no correction of error.
3e. LOAN HISTORY
The National Student Loan Database System
stated a total of five loans “pursuant to the Direct Loan
Program and Federal Family Education Loan (FFEL)
Program” was processed in my name. “A FFEL promis­
sory note to attend West Los Angeles College on or
about 11-9-1999”. “Pursuant to this promissory note, a
loan was disbursed in the amount of $3,500 on 12-21999 through 4-10-2000”. The representative for the
U.S. Department of Education stated, “This loan was
made and held by Bank of America until your default”.
“You defaulted on this loan on 7-11-2002”. “In light of
your default, this loan was assigned to the U.S. Depart­
ment of Education on 7-29-2009”. “As of 1-11-2019, this
FFEL loan has an outstanding balance of $5,863.08”
($3,707.96, principle; $2,155.12, interest). This item
was transferred to the U.S. Department of Education
on 7-29-2009 and is the same item that was on my Experian credit report dated 9/22/2015 and deleted on
10/27/2015 through a disputed investigation. If this
item was not paid off in full then why did the item not
remain on my credit report until July of 2016 which
would have been seven years of delinquency? This
question was never answered by the representative of
the U.S. Department of Education.

24
NSLDS stated, “A FFEL master promissory note
to attend Anthem College was signed on or about 9-292000”. “Pursuant to this promissory note, two loans in
the amount of $2,625 and $4,000 were disbursed on 1019-2000 through 2-12-2001”. “These two loans were
held by the lender, U.S. Bank, until your default 9-262002, when the loans were transferred to Educational
Assistance Corporation, the loan guarantor”. “On or
about 3-6-2003, these loans were paid in full through
consolidation”. “The current balance on these loans is
zero”. “The Department never held these two loans”.
NSLDS also stated, “I completed an online Direct Con­
solidation loan application on or about 1-7-2013 and
signed a paper promissory note for this loan on or
about 2-03-2003”. “Pursuant to this promissory note, a
total of $5,100.30 was disbursed and the proceeds were
used to repay two Federal Family Education Loan Pro­
gram loans taken to attend Anthem College”. “As a re­
sult of the consolidation, these two FFEL loans were
paid in full”. “As of 1-11-2019, this Direct Consolidation
loan has an outstanding balance of $8,633.17”. I never
signed any Direct Consolidation loan application
online on 1-7-2013. Anyone can submit an online appli­
cation in my name and sign my signature exactly like
my signature on my drivers license or form of identifi­
cation. Why wasn’t this document dated 1/7/2013 part
of the court transcript documents that the U.S. Depart­
ment of Education submitted with the Memorandum
of Law on 4/22/2019 and decision letter on 1/15/2019?
This question was never answered by the representa­
tive of the U.S. Department of Education.

25
3f.

PROCEDURAL HISTORY

I did submit an identity theft claim form in July of
2015 but the claim form was denied because I did not
attend Anthem College in 2003. In order to submit an
identity theft claim form a person has to be registered
to the school of admissions were the identity theft oc­
curred. I did not attend Anthem College in 2003 nor
did I submit an online application as such stated on 17-2013.1 only stated two loans were paid in full in 2013
by Social Security Administration. These two loans in
the amount of $3,500 from West Los Angeles College
and $1,708 from High tech Institute were paid in 2013.
I graduated in 2000 from West Los Angeles College and
have not attended any College since graduation. Stu­
dent Loan debts were paid off for someone else’s stu­
dent loan debt obligation. There was only one defect on
my Experian credit report that was disputed on
10/2/2015 and deleted through disputed investigation
on 10/27/2015. This item was supposed to remain on
my Experian credit report until July of 2016. If this
amount of student loan debt was not paid in full why
was the item deleted before July of 2016 as such stated
on the credit report dated 9/22/2015? This question
was never answered by the representative of the U.S.
Department of Education. I never received any court
order documents for student loan payments. I submit­
ted the following documents below in further support
of my claim:
•

Certification/Agreement of Cooperation
of Identity Theft Claims form, dated 7-142015

26

•

A letter dated 7-14-2015 titled “Certifica­
tion Identity theft claims”

•

Copy of New York commercial driver’s li­
cense

•

Copy of social security card

•

Transunion Credit Report #xxxxxx311,
dated 6-30-2015

•

Copy of Benefit statement from Social Se­
curity Administration in 2015

I submitted another Identity theft claim in Sep­
tember of 2015 objecting to all of the student loans that
were processed in my name under false pretense. Mon­
etary funds in the amount of $26.00 dollars were
withdrawn from my checking account on 3/11/2015,
4/08/2015,5/13/2015, and 6/10/2015 without a notice or
court order. If any student loan amount was owed as
such stated then why wasn’t the cycle of $26.00 dollars
per month continued after June 10, 2015? This ques­
tion was never answered by the representative of the
U.S. Department of Education. I did request that the
Department of Education contact Social Security Ad­
ministration for the correct update and to reimburse
my payments but to no avail I was denied. I submitted
the following documents to support my second student
loan identity theft claim form:
•

Certification/Agreement of Cooperation
of Identity Theft Claim form dated 9-182015

27
A letter dated 9-18-2015 titled “Certifica­
tion identity theft supportive claim let­
ter”
Copy of July 2015 claim submission
Form SSA-1099-Social Security Benefit
Statement for 2013
Copy of a letter written to Experian
Credit Reporting Agency dated 9-11-2015
Experian Report dated 8-28-2015
Experian Report dated 8-29-2015
Transunion Credit Report dated 6-302015
Experian Report dated 6-15-2015 for
Sean A. Clark Jr.
Notice the last item states Junior instead of Sen­
ior. I am the only Sean A. Clark Senior there is no
junior added to my name. The U.S. Department of Ed­
ucation denied my second claim on 10-1-2015 stating
“the consolidation of your debts served as official rati­
fication of those debts”. “A duplicate denial letter re­
garding your September 2015 identity theft claim was
sent to you on 10-6-2015”; “this letter contained the
same information as the 10-1-2015 letter”. The U.S. De­
partment of Education continually stated, “since the
claim you alleged in your 7-14-2015 submission was
that of common law fraud rather than identity theft,
on 2-29-2016, the Department sent you a letter inform­
ing you of an opportunity to receive another review of
your claim. The letter listed the documents previously

28
provided by you, and gave you an opportunity to sub­
mit any additional documentation to support of your
contention that you were not responsible for the loans
in question”.
Another identity theft claim form was submitted
in May of 2016. The following documents were submit­
ted to support that claim:
•

Certification/Agreement of Cooperation
of Identity Theft Claim form, dated 9-182015

•

Six page decision order notice from the
United States District Court, Southern
District of New York, dkt. #15-cv-5863

•

A letter dated 9-18-2015 titled “Certifica­
tion identity theft supportive claim let­
ter”

•

Certification/Agreement of Cooperation
of Identity Theft Claim form, dated 7-142015

•

A letter dated 7-14-2015 titled “Certifica­
tion Identity Theft Claim”

•

Copy of benefit letter from Social Security
Administration for 2015

•

Transunion Credit Report, dated 6-302015

•

Citibank Transaction Journal, dated 114-2015 through 6-10-2015

•

Copy of Experian-dispute status, printed
10-2-2015

29
•

Copy of Experian-dispute status results,
printed 10-27-2015

•

Experian annual credit report dated 922-2015

•

Form SSA-1099-Social Security Benefit
Statement for 2013 and other tax years

•

Allied Interstate statement letter, dated
7-23-2015

•

Student Loan Finance Corporation state­
ment letter, dated 8-7-2015

Five items above are admissible evidence to prove
identity theft occurred pertaining to Student loans
which relates to my drivers license #xxx-xxx-678. The
first item is the citibank transaction journal dated 114-2015 through 6-10-2015. An amount of $26.00 dol­
lars was withdrawn from my checking account without
a notice or court order. If such Student loan debt was
owed why was the withdrawal amount stopped after
June 10,2015 instead of a continual cycle of withdraw­
als from my checking account? The second and third
item is the Experian dispute status which started on
10-2-2015 and ended on 10-27-2015 which deleted the
item on the Experian credit report before July of 2016.
Why didn’t the item remain on the Experian credit re­
port until July of 2016? The fourth item is the Experian
credit report dated 9-22-2015 which had one item on
the credit report before it was deleted on 10-27-2015
due to Experian dispute investigation. Why was that
item deleted before the status date of July of 2016? The
last item is the Social Security Administration Benefit

30

Statement form-1099 for 2013 and other tax years. The
total amount paid by Social Security Administration
was $50,354.90 for 2013 and other tax years, which are
2012, 2011, 2010, 2009 and so forth. Why were no
checks returned to Social Security Administration if
benefits were not paid in full for those years? These
questions were never answered by the representative
of the U.S. Department of Education.
3g. EVALUATION OF DETERMINATION
In my letter dated 7/14/2015 I stated that there is
a defect in my Experian annual credit report file that
was never investigated properly. The Transunion re­
port is a clear and precise report dated 6/30/2015 with
no student loan debts items mentioned. In my second
Identity theft claim letter dated 9/18/2015 I spoke with
one of the representatives from the U.S. Department of
Education and they informed me that no court order
was issued but that I’m obligated to pay the student
loan debt by default. I informed the representative
from the U.S. Department of Education that all pay­
ments were made by Social Security Administration
for the 2013 tax year and all previous years a total
of $50,354.90. As I stated in my first claim dated
7/14/2015 that there are defects in my Experian credit
file that needs correction. Again, the item was disputed
on 10-2-2015 and deleted permanently on 10-27-2015
due to a disputed investigation. However, the item sta­
tus was supposed to remain on the experian credit re­
port file until July of 2016.1 also attached the letter I
received from Allied Interstate in the amount of

31
$16,600.78. (#P62742120; Titanium #1003192789)
This number is totally inaccurate and was never on
any of my credit reports from the three credit bureaus.
In the letter dated 1/15/2019 the U.S. Department of
Education stated, “the department records and the fol­
lowing documentation were considered in making our
decision”:
•

FFEL Promissory Note, signed 11-9-1999

•

FFEL Promissory Note, signed 9-29-2000

•

Direct Consolidation Promissory Note,
signed 2-3-2003

•

National Student Loan Database System
(NSLDS) data

•

Debt Management and Collection System
(DMCS) data

•

School records from West Los Angeles
College

•

Letters from the Department dated 7-292015,10-1-2015, and 10-6-2015

•

Consolidation loan data

•

Copy of New York commercial driver’s li­
cense, issued 8-31-2009

•

Copy of Social Security Card

•

Form SSA 1099-Social Security Benefit
Statement for 2013

•

Copy of New Benefit amount letter re­
garding social security benefits for 2015

32

•

Citibank Transaction Journal, dated 114-2015 through 6-10-2015

•

Experian Report Number 3888-1752-85,
dated 6-19-2015 for Sean A. Clark Jr.

•

Transunion Credit Report #xxxxxx311,
dated 6-30-2015 for Sean A. Clark

•

Certification/Agreement of Cooperation
of Identity Theft Claim (COOP) form,
dated 7-14-2015

•

A letter dated 7-14-2015 titled “Certifica­
tion Identity theft claims”

•

Allied Interstate Correspondence, dated
7-23-2015

•

Student Loan Finance Corporation State­
ment, dated 8-7-2015

•

Experian Report Number 3892-3535-31,
dated 8-29-2015 for Sean Alexander
Clark Sr.

•

Experian Report Number 1879-0871-15,
dated 8-28-2015 for Sean Alexander
Clark

•

Experian Report Number 2952-8715-08,
dated 8-29-2015 for Sean A. Clark

•

Copy of Letter dated 9-11-2015 to Ex­
perian

•

Certification/Agreement of Cooperation
of Identity Theft Claim (COOP) form,
dated 9-18-2015

33
A letter dated 9-18-2015 titled “Certifica­
tion identity theft supportive claim let­
ter”
•

Experian Report Number 0404-0623-81,
dated 9-22-2015 for Sean Alexander
Clark Sr.

•

Experian Dispute Status for Sean Alex­
ander Clark Report Number 0404-062381, dated 10-2-2015

•

Experian Dispute Status completed and
item deleted for Sean Alexander Clark,
Report Number 0404-0623-81, dated 1027-2015

A total of twenty-eight documents were submitted
to the U.S. Department of Education for an appropriate
and correct decision but the U.S. Department of Edu­
cation did not make the correct decision when evaluat­
ing the above documents. The admissible evidence
from the above list are: Form SSA 1099-Social Secu­
rity Benefit Statement for 2013, which states all tax
years from 2013 and previous years were paid in full
by Social Security Administration a total of $50,354.90,
tax years include all student loan debts from West Los
Angeles College in 1999-2000 and High Tech institute
in 2001; Citibank Transaction Journal dated 1-14-2015
through 6-10-2015; Since all debts and loans were
paid in 2013 there was no reason to withdraw funds
from my checking account in the amount of $26.00 dol­
lars for four months; Experian report number xxxxxxxx-85 dated 6-19-2015 for Sean A. Clark Jr., My
name should have ended with senior; Allied Interstate

34
correspondence dated 7-23-2015, and Student Loan Fi­
nance Corporation Statement letter dated 8-7-2015
these statement amounts are inaccurate because all
debts were paid in 2013; Experian report number xxxxxxxx-81 dated 9-22-2015 for Sean Alexander Clark Sr.,
this item should not have been on my credit report due
to a disputed investigation result on 10-27-2015; Ex­
perian dispute status for Sean Alexander Clark report
number xxxx-xxxx-81 dated 10-2-2015 and experian
dispute status completed and item deleted for Sean Al­
exander Clark report number xxxx-xxxx-81 dated 1027-2015; These two items are evidence of burden of
proof to show that an item should not have appeared
on my credit report because the item was paid.
I never attended Anthem College in 2003 or signed
a direct loan consolidation application online on 1-72013. Just because an online signature matches my
driver’s license, does not mean I signed the application
anyone can impersonate a signature online. The case
was remanded to DOE for further administrative pro­
ceedings on May 11, 2016 due to the U.S. Department
of Education confessed error. A remand is only three to
twelve months not three years and the administrative
record is still not evaluated correctly and false state­
ments such as the inaccurate amount of $14,399.29 in
student loan debt by the U.S. Department of Education
was never corrected this action violates the fourteenth
and fifth amendment. Defects in the administrative
record were never corrected. Also, not evaluating the
credit reports properly due to documents that were
submitted pertaining to disputed investigation on

35

10-2-2015 and 10-27-2015. This is evidence of fraud be­
cause that item on the credit report was to remain on
the credit report until July of 2016 not 10-27-2015 due
to a disputed investigation. As far as the Debt collec­
tion Improvement act of 1996, you can never offset
something that does not exist all debts were paid off in
2013 a total of $50,354.90. The amount of $14,399.29
which the representative for the U.S. Department of
Education presumes is totally ridiculous and totally in­
accurate. The correct amount should have been
$10,583.61 by using the correct student loan interest
rate calculator. This amount was paid off in full by So­
cial Security Administration in 2013.

REASON FOR GRANTING THE WRIT
There are four reasons why this petition should be
granted. The first reason is that as I stated above that
there is an exception to immunity which is, in Ex parte
Young, 209 U.S. 123 (1908). Secondly, the district court
did not allow me ninety days to serve the respondent
which violates FRCP Rule 4(m). Thirdly, the Second
Circuit court of appeals stated on page three of the de­
cision order dated 5/14/2021 that “Clark does not men­
tion his fifth amendment claim”. I did mention the
fifth amendment and fourteenth amendment on page
twelve of my brief dated 1/8/2021. Fourthly, the Second
Circuit court of appeals also stated on page four of
the decision order dated 5/14/2021 that I’m mistaken
because the exception to immunity does not apply
here. It is obvious that the exception is my physical

36

disability of sciatica which is a nerve impinged by a
bulging disc and also the exception is my gold bars
from my estate account which is a predominately val­
uable asset. A systematically stolen drivers license is
never a frivolous complaint, brief, or petition pertain­
ing to one’s identity. The merit of the case is that there
is a leakage from my drivers license #xxx-xxx-678 per­
taining to Index #400256/2014 of HRA, Social Security
Administration benefit entitlement, and Student loan
identity theft embezzlement. This leakage to my driv­
ers license is my stolen identity. Not stolen physically,
but rather privately systematically through a com­
puter database. Because of this leakage to my drivers
license, all of these cases were not in my favor in this
court No. #10-5273, No. #13-6208, No. #13-8865, No.
#14-5566, No. #14-5568, No. #14-5858, No. #14-8118,
No. #16-6495, and No. #19-938.
As I stated in the U.S.D.C. summons & complaint
dated 9/28/2020 dkt. #20-cv-8000, that the most recent
embezzlement was case number #19-938 which is a
case that presided in this court and relates to index
#400256/2014 defects in the administrative record.
The admissible evidence and burden of proof is the
judge order dated 7/11/2014, proof of service dated
8/20/2014, letter pertaining to my gold bars from my
estate account dated 9/29/1998, panel of judges order
for Commissioner of Social Security Administration
dated 5-19-2010 (dkt. #09-2974cv) and May 9, 2013
(dkt. #13-866cv) to correct all defects in the adminis­
trative record, benefit statement from Social Security
that all debts and taxes were paid in 2013, letter to

37

appeals council disability adjudication and review
board dated 7/26/2012 and post office receipt dated
7/26/2012. I submitted an appeal form to the appeals
council review board on 7/26/2012 by express one day
mail but I never received any kind of response from the
appeals council review board regarding tracking num­
ber #E1486128197US. Also a summons for Student
Loan Finance Corporation, U.S. Department of Educa­
tion, and Allied Interstate was issued on November 30,
2015.
Furthermore, I submitted a census questionnaire
on March 13, 2020 and on July 18, 2020 but somehow
the information that I imputed was changed to a label
that I am not. For the record, I am a native american
citizen because I was born in this country and my par­
ents and my grandparents were also born in this coun­
try. I’m requesting all information from the Census is
corrected to the formal standard of March 13,2020 and
July 18, 2020. Also for the record I am not deceased
and I am not a female gender and I never indulged in
any legal or illegal substance abuse.
“There is a certain code of conduct which a judge
must follow at all times in regards to respecting the
law”. “A judge should respect and comply with the law
and should act at all times in a manner that promotes
public confidence in the integrity and impartiality of
the judiciary”. The U.S.D.J. decision on 11/5/2020 was
not only unlawful but unconstitutional. Under FRCP
Rule 4(m) I’m required ninety days to serve the re­
spondent. A judge decision should be based on the con­
cept of rule of law for “human right principles”.

38

"The driver’s license is the gateway to everyday
interaction. If someone has a legitimate license from
an issuing authority under false pretenses, it empow­
ers them to do bad things”. “In New York where the
technology was adopted in 2010, the DMV has identi­
fied 14,500 people with two or more licenses all fraud­
ulent. Some date to the 1990’s and are too old to
prosecute. There is only one license for one driver”.
(Pewtrusts.org)

CONCLUSION
I, therefore respectfully ask that this court grant
my petition for the reasons stated above and under
Rule 42.1 I’m requesting six-hundred trillion dollars
cash only and to retrieve all of my gold bars from my
estate account and fix the leakage to my drivers license
or the required amount from all of the previous cases
and to correct defects in the administrative record per
dkt. #09-2974cv and for the leakage of my drivers li­
cense that dates back to 2010 with case No. #10-5273
of this court. A judgement decision should never be
based on an unconstitutional law but rather judged by
the facts and merit of the case. Immunity is unconsti­
tutional pursuant to the fourteenth amendment and
in Ex parte Young, 209 U.S. 123 (1908). As I also stated
above, I was not given ninety days to serve the re­
spondent under FRCP Rule 4(m). Lastly, for the record,
my religion is Christianity. I’ve always congregated
with Christian beliefs from the time I was baptized as
a toddler to the time I was baptized as an adult I’ve

39
always been a Christian. I respect all religions but you
cannot label someone that they are not. Also, I’m re­
questing that ICCPR is implemented for foreign diplo­
mats non-intervention.
Respectfully submitted by,
Sean A. Clark
Pro se Petitioner
93 4th Avenue 1172
New York, New York 10003
Phone #917-242-2573
Email: seantellc_22@yahoo.com
Date: 6/30/2021

